Aug 21 2020 09:47:01

Electronic Document

2018-CT-00649-COA

Pages: 1

Serial: 233379
IN THE SUPREME COURT OF MISSISSIPPI
No. 2018-CT-00649-SCT
DERRICKDEWA YNE MOFFITE A/K/A DERRICK
DEWA YEN MOFFITE A/K/A DERRICK D.
MOFFITE

Appellant/Petitioner

v.
Appellee/Respondent

STATE OF MISSISSIPPI

ORDER
Before the undersigned Justice is the petition for writ of certiorari filed by counsel
for Derrick Dewayne Moffite. No response was filed. Having duly considered Moffite's
petition, the Court finds that it should be denied.
IT IS THEREFORE ORDERED that the petition for writ of certiorari is denied.
SO ORDERED.

TO DENY: RANDOLPH, C.J., KITCHENS, P.J., MAXWELL, BEAM, CHAMBERLIN,
ISHEE, AND GRIFFIS, JJ.

TO GRANT: KING, P.J., AND COLEMAN, J.

DIGITAL SIGNATURE
Order#: 233379
Sig Serial: 100002351
Org: SC
Date: 08/21/2020

Robert P. Chamberlin, Justice

i!

https://casetext.com/case/mofFite-v-state-l

MofFite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

Black Friday Deal: 30% off if you purchase by Wednesday 12/2.

tjgji! casetext
Opinion

Search all cases a...

Subscribe Now
Help

Sign In

SignUp

Case details

From Casetext: Smarter Legal Research

Mofflte v. State
COURT OF APPEALS OF THE STATE OF MISSISSIPPI
Dec 3, 2019
NO. 2018-KA-00649-COA (Miss. Ct. App. Dec. 3, 2019)

♦ Download PDF

Copy Citation

pta Check Treatment

NO. 2018-KA-00649-COA
12-03-2019
DERRICK DEWAYNE MOFFITE A/K/A DERRICK DEWAYEN MOFFITE
A/K/A DERRICK D. MOFFITE APPELLANT v. STATE OF MISSISSIPPI
APPELLEE
ATTORNEY FOR APPELLANT: JAMES A. WILLIAMS ATTORNEY FOR
APPELLEE: OFFICE OF THE ATTORNEY GENERAL BY: LAURA TEDDER
DISTRICT ATTORNEY: BILBO MITCHELL

Red flags, copy-with-cite, case summaries, annotated
statutes and more.
Compare with Westlaw >

1 of 18

12/1/2020, 3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/moffite-v-state-l

McCARTY, J., FOR THE COURT
DATE OF JUDGMENT: 02/06/2018 TRIAL JUDGE: HON. LESTER F.
WILLIAMSON JR. COURT FROM WHICH APPEALED: LAUDERDALE
COUNTY CIRCUIT COURT ATTORNEY FOR APPELLANT: JAMES A.
WILLIAMS ATTORNEY FOR APPELLEE: OFFICE OF THE ATTORNEY
GENERAL BY: LAURA TEDDER DISTRICT ATTORNEY: BILBO
MITCHELL NATURE OF THE CASE: CRIMINAL - FELONY
DISPOSITION: AFFIRMED -12/03/2019 MOTION FOR REHEARING
FILED: MANDATE ISSUED:

EN BANG.
McCARTY, J., FOR THE COURT : 1i. A jury of his peers convicted Derrick
Moffite of aggravated assault on a correctional officer by putting her into a
chokehold. The trial court sentenced him as a habitual offender to life
imprisonment without eligibility for parole. Aggrieved, Moffite appeals,
arguing (1) the evidence was insufficient to support an aggravated-assault
conviction; (2) he was improperly indicted as a habitual offender; (3) the
trial court improperly denied his proposed jury instructions; (4) the trial
court was not impartial; (5) the State committed a discovery violation; and
2

(6) he was improperly sentenced. Finding no error, we affirm. *2

FACTS
12. While in custody at the Lauderdale County Detention Facility, Moffite
made comments about committing suicide to a lieutenant, who immediately
informed his superior. Moffite made statements such as "A life for a life,"
"I'm done," and "I have nothing else to lose." As a result, Sergeant Jodi
Dowdy was ordered to place Moffite on suicide observation. Sergeant
Dowdy, along with three other officers, tried to get Moffite to enter the
suicide cell on his own accord. Moffite refused. I3. The officers then tried to
physically place Moffite in the cell, but he managed to break away and
chased Sergeant Dowdy. Another correctional officer heard Moffite say to
Sergeant Dowdy, "That mace won't stop me from getting you." Sergeant
Dowdy testified that Moffite then "slammed me to the floor and jumped on

2 of 18

12/1/2020,3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/moffite-v-state-l

top of me." Moffite wrapped his arm around Sergeant Dowdy's throat.
Sergeant Dowdy testified that "he wrapped his leg around me and then ...
[took] his arm and wrap[ped] it around my throat, choked me to the point
where it did cut off my blood flow and my breathing." She reiterated, "I
couldn't breathe." She struggled to get out of the chokehold. In the end, it
took three officers to pull Moffite off of the officer and get him to release his
chokehold on Sergeant Dowdy. I4. Sergeant Dowdy testified that when she
got up, she was "very disoriented... everything was a little fuzzy." She had
trouble swallowing for several days after. Moffite's actions also resulted in
"choking, neck pain, [and] some nightmares up to about two weeks after." At
the time of trial, approximately six months after her assault, Sergeant
Dowdy testified that she had scar tissue on her neck—a knot under her left
jaw. *3 I5. Another officer, Charlie Eakins, witnessed the assault and testified
that Sergeant Dowdy's eyes were bulging out while Moffite choked her.
Officer Eakins was able to pull Moffite's arm away from Sergeant Dowdy's
neck while two other officers helped restrain Moffite. 16. After the attack,
officers reviewed footage of numerous phone calls Moffite made while in the
holding facility. Moffite made comments indicating his intent to hurt a
correctional officer—"I'm going to fight one of these police," and "I'm fixing
to beat girls up and everything."

DISCUSSION
I. The evidence was sufficient to support an aggravated assault
conviction. 17. Moffite argues on appeal that his conviction for aggravated
assault was unsupported because the evidence was insufficient to show that
Sergeant Dowdy suffered serious bodily injury. 18. Our standard of review is
whether any rational trier of fact could have found, beyond a reasonable
doubt, that Moffite was guilty of aggravated assault. Johnson v. State, 264 So.
3d 822, 826 (I18) (Miss. Ct. App. 2018). Under Mississippi Code Annotated
section 97-3-7(2) (a) (Rev. 2014), "[a] person is guilty of aggravated assault if
he ... attempts to cause serious bodily injury to another, or causes such
injury purposely, knowingly or recklessly under circumstances manifesting
extreme indifference to the value of human life ...." The Mississippi
Supreme Court has defined "serious bodily injury" as an "injury which creates

3 of 18

12/1/2020, 3:03 PM

MofFite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/mofFite-v-state-l

a substantial risk of death or which causes serious, permanent disfigurement,
or protracted *4 loss or impairment of the function of any bodily member or
organ." Fleming v. State, 604 So. 2d 280,292 (Miss. 1992) (emphasis added);
see also Johnson v. State, 252 So. 3d 597,600 (I13) (Miss. Ct. App. 2017)
(reiterating the definition of "serious bodily injury" in aggravated-assault
cases). I9. The statute does not define the means by which serious bodily
injury must be inflicted to constitute aggravated assault. Bright v. State, 986
So. 2d 1042,1047 (I18) (Miss. Ct. App. 2008).1 Aggravated assault based on
the use of hands and fists does not require a finding that the hands and fists
constitute the use of a deadly weapon; it is enough if their use constitutes
means likely to produce either death or serious bodily injury. Jackson v. State,
594 So. 2d 20,24 (Miss. 1992). Under our precedent, the State does not have
to prove the victim suffered "serious" bodily injury so long as it was possible.
Id. "Mere 'bodily injur/ is sufficient so long as it was caused with other
means likely to produce death or serious bodily harm." Id. (internal
quotation mark omitted). Whether hands and arms are considered a "means
likely to produce serious bodily harm" is a question for the jury. Id. Moffite's
intention to commit aggravated assault is also question for the jury.
Chambliss v. State, 919 So. 2d 30,35 (I15) (Miss. 2005). Intent is determined
by "the act itself, surrounding circumstances, and expressions made by the
actor with reference to his intent." Id. 1io. There is no doubt that Moffite
planned the confrontation. Recorded phone conversations between Moffite
and an unknown individual revealed Moffite's stated intent *5 to "fight one
of these police." He admitted that he disobeyed the officers' instructions
several times and that once he started the fight, he grabbed Sergeant Dowdy
to use her as a shield. Moffite testified that it did not matter which officer
was near him at the time—he would have grabbed any officer. 1n. An officer
testified that Moffite broke away from the group of officers, chased Sergeant
Dowdy, and grabbed her. He further testified that Moffite had Sergeant
Dowdy in a chokehold, her eyes were bulging, and she appeared scared.
Moffite did not release Sergeant Dowdy of his own accord, but had to be
physically pulled off of her by three other officers. Sergeant Dowdy attested
that Moffite "proceeded to ... take his arm and wrap it around her throat,
choke her to the point where it did cut off her blood flow and her breathing."

4 of 18

12/1/2020,3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/moffite-v-state-l

I12. In similar cases, defendants were charged and convicted of aggravated
assault for choking their victims. Pritchett v. State, 171 So. 3d 594,596 (14)
(Miss. Ct. App. 2015); Sellers v. State, 108 So. 3d 456,457 (1i) (Miss. Ct. App.
2012).2 In Pritchett, the defendant grabbed a correctional officer in a
chokehold, but she managed to escape. Pritchett, 171 So. 3d at 595 (111-2).
Like Moffite, the defendant also made a statement indicating his intent to
harm the correctional officer. Id. at 597 (I9). And like Moffite, the defendant
asserted he was guilty of simple assault at most. Id. at 596 (I7). But we
found sufficient evidence *6 supported the guilty verdict: surveillance video
showed the defendant choking the victim; the victim was clearly in distress;
the victim believed the defendant was going to rape her then kill her; and
the victim was bleeding from her ears. Id. at 597 (II8-9). I13. In Sellers, the
defendant disputed the State's witnesses' testimony, arguing that the
victim's injuries were not serious and that the choking was not likely to
produce death or seriously bodily injury. Id. at 457 (I4). Yet, one witness
testified the victim was "turning blue." Id. at 457 (I3). The victim testified
that she was in a chokehold, felt like she would pass out, and the defendant
was "choking her to death." Id. The defendant did not release the victim
until she shot him in the leg. Id. We recognized that "[the jury obviously
found Sellers intended to injure [the victim] 'by choking her with his hands
until she nearly passed out,' as alleged in the indictment." Id. at 459 (I9).
This was sufficient evidence to affirm. Id. I14. Tracking our definition of
"serious bodily injury," the jury here was instructed "that 'serious bodily
injur/ means bodily injury which creates a substantial risk of death, OR,
which causes serious, permanent disfigurement; OR, protracted loss or
impairment of the function of any bodily member or organ of the body."
(Emphasis added). Based on the record, a reasonable juror could find that
Moffite intentionally caused bodily injury by creating a substantial risk of
death to Sergeant Dowdy. He planned to attack an officer, later admitted he
did it, and the facility's video showed he did it. It is also reasonable to
believe that being placed in a chokehold during a high-tense situation could
"create[ ]a substantial risk of death." *7 I15. The jury was free to consider
the evidence, and they determined that Moffite caused serious bodily injury
to Sergeant Dowdy by placing her in a chokehold that cut off blood and

5 of 18

12/1/2020,3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https ://casetext.com/case/moffite-v-state-1

airflow to her brain. This evidence is sufficient to affirm. 6. Moffite also
asks that we reverse and remand for a trial on whether he committed the
lesser-included offense of simple assault. Because we found that the
evidence was sufficient to affirm his aggravated-assault conviction, we
decline to address this issue.
We note that in a domestic-violence situation, "strangulation automatically
falls under aggravated domestic violence." Brown v. State, 2018-KA-00011COA, 2019 WL 2428769, at *3 (I17) (Miss. Ct. App. June 11,2019); see Miss.
Code Ann. § 97-3-7(4)(a)(iii) (Rev. 2014).
Although Sellers was charged with attempted aggravated assault and Moffite
was charged with aggravated assault, "we acknowledge that section 97-3-7(2)
fails to distinguish between the two offenses and that, substantively, they
are the same crime." Hunter v. State, 196 So. 3d 998 n.i (Miss. Ct. App. 2015);
see also Wilson v. State, 904 So. 2d 987,996 (I32) (Miss. 2004).

II. Moffite was properly indicted as a habitual offender. I17. Moffite
challenges his indictment, claiming that the grand jury elected to charge him
as a habitual offender under Mississippi Code Annotated section 99-19-81
(Rev. 2014), which would allow him to be eligible for parole, and that the
State wrongly amended his indictment to include an enhancement to serve
life without parole eligibility against the grand jury's wishes. I18. Rule 14.4(a)
of the Mississippi Rules of Criminal Procedure states:
For good cause shown, indictments may be amended as to form but
not as to the substance of the offense charged. Amendment may be
allowed only if the defendant is afforded a fair opportunity to
present a defense and is not unfairly surprised.
I19. Two months after Moffite's original indictment, the State amended it to
remove extraneous language. It removed the phrase "while confined as an
offender in the Lauderdale County Detention Facility, Meridian, Mississippi,
and in the custody of the Mississippi Department of Corrections." The
record lacks any documentation to support Moffite's allegation that he was
initially charged under section 99-19-81. Even if there were, the State is
expressly allowed under Rule 14.4(a) to amend the form of the indictment.

6 of 18

12/1/2020, 3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/moffite-v-state-l

*8 I20. For these reasons, this assignment of error is without merit.

9

III. The jury instructions were properly refused. I21. Moffite contends he
is entitled to a new trial because the jury instructions did not express his
theory of the case. Moffite maintains that his proposed jury instructions
presented the theory that he defended himself against the deprivation of
senses and human contact by being placed in a suicide cell. I22. The circuit
court has sole discretion to give or refuse suggested jury instructions.
Victory v. State, 83 So. 3d 370,373 (I12) (Miss. 2012). This Court reviews jury
instructions under an abuse-of-discretion standard. Burgess v. State, 178 So.
3d 1266,1272 (I14) (Miss. 2015). If all the jury instructions, when read
together, "state the law of the case and create no injustice, then no
reversible error will be found." Id. A trial court has the discretion to refuse
an instruction that "incorrectly states the law, is covered adequately
elsewhere in the instructions, or is without foundation in the evidence."
Victory, 83 So. 3d at 373 (I12). I23. Because Moffite did not object to the
refusal of the two jury instructions, he requests this Court review this issue
for plain error. Plain error is an avenue for the defendant to raise an issue on
appeal when he failed to contemporaneously object at trial. Starr v. State,
997 So. 2d 262,266 (I11) (Miss. Ct. App. 2008). But it only applies in certain
situations such as where "fairness, integrity, or the public reputation of
judicial proceedings" are involved. Id. at (I12). Furthermore, the plain error
doctrine corrects apparent transgressions and misapplied law. Bowdry v.
State, 158 So. 3d 354,356 (16) (Miss. Ct. App. 2014). Where there is a
departure from a legal rule, the error is self-evident, and the mistake has
prejudiced *9 the outcome, this Court will find plain error. Id. at (I7).
A. Instruction D-i was properly refused. I24. Proposed as "D-i," the
instruction on "resisting arrest" stated in relevant part:
The State must also prove beyond a reasonable doubt that the
Defendant was not acting in self defense.
The question of the existence of unwarranted and unreasonable
force by the jailers, the necessity or apparent necessity of
Defendant to resist the force, as well as the amount of force

7 of 18

12/1/2020, 3:03 PM

MofFite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/mofFite-v-state-l

necessary by the Defendant to employ to resist the actions of the
jailers, can only be determined from the standpoint of the
Defendant at the time of the incident and under all existing
circumstances.
The Defendant does not have the burden of proving that he acted in
self-defense.
If, after considering all the evidence you have a reasonable doubt as
to whether the Defendant acted in self defense, then he can not be
convicted so long as you have such a reasonable doubt.
The trial court refused the instruction, explaining that: "[t]he State's
position is it is an improper statement of the law. It is not a reasonable
defendant standard. It is a reasonable person standard." I25. In response to
Moffite's contentions, the State argues that D-i was an incorrect statement
of the law and was covered through the other instructions. Moffite asked the
jury to examine his actions subjectively—"from the standpoint of the
defendant...." But according to our longstanding precedent, "whether a
defendant has 'reasonable grounds' to fear imminent death or serious bodily
injury is governed by an objective criterion." Hart v. State, 637 So. 2d 1329,
1339 (Miss. 1994). "The defendant is judged not according to his own
particular mental frailties but by a 'reasonable person' standard." Id. As a
result, D-i is an improper statement of law and was properly refused. I26.
Moffite further describes D-i as a refused "resisting arrest instruction." But
this *10 instruction was otherwise given to the jury in another instruction,
which provided, "The [cjourt instructs the jury that a detainee has the right
to resist excessive force ..." Similarly, the burden of proof for the State,
addressed in the first paragraph of D-i, was covered by three other
instructions. I27. As a result, the trial court did not err in refusing D-i.
B. Instruction D-2 was properly refused. I28. Moffite also argues his
imperfect self-defense instruction was improperly refused. The proposed
instruction "D-2" stated in full:
If the Defendant committed an assault upon the named Jailer, with
an actual, genuine belief that his actions were necessary in order to

8 of 18

12/1/2020, 3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/mofFite-v-state-l

protect himself from excessive force, even though that belief was
not reasonable under the circumstances, then the Defendant did
not have the mental requirement to commit aggravated assault.
I29. Moffite informed the trial court that D-2 was a model jury instruction
and therefore proper. In response, the State argued that D-2 applied to the
mitigation of murder to manslaughter and was therefore inapplicable in
aggravated-assault cases. The trial court refused the instruction, finding that
all elements of self defense and the reasonable person standard found in D-2
were covered by another instruction. I30. Moffite argues that imperfect self
defense can be given in cases of aggravated assault. But he failed to cite any
authority in support of this broad assertion. Arguments that fail to cite
supporting material are procedurally barred. Hill v. State, 215 So. 3d 518,524
(I10) (Miss. Ct. App. 2017); see M.R.A.P. 28(a)(7) ("The argument shall
contain the contentions of appellant with respect to the issues presented,
and the reasons for those contentions, with *11 citations to the authorities,
statutes, and parts of the record relied on."). Because there is no citation
provided in support, and we are already reviewing under plain error, we find
no reversible error in the trial court's refusal of D-2.
IV. The trial court remained impartial. I31. Moffite also argues the trial
court committed "plain error" by placing itself into the trial proceedings.
This Court can address glaring errors that affect a defendant's
"fundamental, substantive right" even when the defendant failed to raise the
issues at the trial level. Corbin v. State, 74 So. 3d 333,337 (I11) (Miss. 2011).
Moffite argues a violation of his "fundamental right" to have an impartial
judge and not a "master" thirteenth juror. I32. Contending that the trial
court actively inserted itself into the State's cross-examination, Moffite
argues he was denied a fair trial and due process of law because of the
assistance given by the trial court on behalf of the prosecution. I33. The
words and actions of trial courts have great weight with juries. Brashier v.
State, 197 Miss. 237,242,20 So. 2d 65,66 (1944). Always under the watchful
eye of the jurors, the court must be aware of its conduct, listen to its words,
and be mindful of its power to influence. West v. State, 519 So. 2d 418,423
(Miss. 1988). When in the presence of the jury, the trial court can never be

9 of 18

12/1/2020, 3:03 PM

MofFite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/mofifite-v-state-l

too careful and reserved in its actions. Id. Furthermore, where the trial court
shows bias, urges an outcome, or conveys to the jury in a consequential
manner the impression that it has sided with the prosecution, we will
reverse. Layne v. State, 542 So. 2d 237,242 (Miss. 1989). But it is within the
right of the trial court to question witnesses to develop the truth. Jones v.
State, 223 Miss. 812, 820,79 So. 2d 273, 276 *12 (1955). I34. In support of his
arguments, Moffite cites to a case where the Supreme Court found thirty
occasions where the trial court inappropriately inserted itself into a trial.
West, 519 So. 2d at 421. The trial court guided the district attorney twenty of
those thirty times. Id. In nine other instances where the district attorney's
questions were inadequate, the trial court interjected again to ask questions
of the witnesses. Id. The Supreme Court held that the questions posed by
the trial court bolstered the prosecution's case. Id. I35. The trial court here
did ask questions and made statements in front of the jury. But the trial
court's questions and comments were an attempt to clarify Moffite's
answers and move questioning along. I36. Every sequence of questions by
the trial court was triggered by an objection of "nonresponsive" by the State.
For instance:
Moffite: You are steadily asking the same question over and over. I
said I don't recall.
The State: Objection; nonresponsive.
The Court: He—you said you don't recall?
Moffite: Yes, sir.
The Court: So that means, essentially, that you could have said it
maybe but you don't remember you said it.
Moffite: Yes, sir.
The Court: Is that a yes or no?
Moffite: No, that I don't remember.
The Court: And his next question was, Well, Mr. Moffite, that means
you could have said it and you just don't remember it.
Moffite: Okay. Yeah.
The Court: Okay.
This pattern continues throughout three other sections of the trial record.

lOof 18

12/1/2020,3:03 PM

MofFite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/mofFite-v-state-l

The State objected to Moffite's unresponsiveness, and only after the
objection did the trial court then question *13 him. I37. Moffite also suggests
that the trial court improperly commented on the evidence by giving a
"summation and statement of the evidence." In support of his assertion,
Moffite relies on Hannah v. State, 336 So. 2d 1317,1319 (Miss. 1976). There the
grand jury indicted the defendant for embezzlement. Id. Initially, the State
purported that the defendant embezzled $8,823.50 but, due to the incorrect
amount, later moved to amend the indictment. Id. The trial court proceeded
to ask defense counsel if there were any objections, which they answered in
the affirmative. Id. The trial court overruled the objection stating, "We could
stay here a month. The defendant can't complain about reducing the amount
to $1,176.50." Id. Our Supreme Court found that the trial court's comments
resulted from the language of the objection. Id. They found the trial court's
response was not one that would cause the jury to be prejudiced towards the
defendant and that it merely explained his ruling. Id. I38. Similar to Hannah,
the comments made by the trial court did not result in prejudice. Instead,
the statements were nothing more than an explanation to end the State's
repetitive questioning. Unlike Hannah, however, defense counsel did not
object to the trial court's statements or questions. Failure to object to a trial
court's allegedly improper comments at trial will waive the issue on appeal.
McDowell v. State, 984 So. 2d 1003,1023 (I82) (Miss. Ct. App. 2007). I39. To
the extent this issue is not procedurally barred, it is without merit.

14

11 of 18

V. Moffite waived all discovery violations by failing to object. I40. Moffite
argues that a discovery violation occurred when the State failed to disclose
*14 Sergeant Dowdy's testimony alleging the existence of permanent scar
tissue in her throat. Based on a note from the jury, Moffite maintains that
Sergeant Dowdy's testimony contributed substantially to the verdict. I41.
Mississippi Rule of Criminal Procedure 17.2 requires the State to disclose all
witnesses and provide a copy of any preserved statements—whether written
or recorded—as well as a summary of any oral statement given by any
witness. MRCrP 17.2. When examining the entire record, a violation of Rule
17.2 is deemed harmless error unless the infraction results in a miscarriage
of justice. Smith v. State, 28 So. 3d 678, 680 (I2) (Miss. Ct. App. 2010). Our

12/1/2020, 3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/moffite-v-state-l

Supreme Court has provided a remedy for defendants who are entitled to
discovery but are faced with late disclosures. Dowbak v. State, 666 So. 2d
1377,1385 (Miss. 1996). That antidote is the power to request a continuance.
Id. But a defendant must undoubtedly ask for a continuance. Id. If this
request is not forthcoming, the issue is waived. Id. Furthermore, where
undisclosed evidence is admitted and a criminal defendant fails to make a
contemporaneous objection, the issue is procedurally barred on appeal.
Smith, 28 So. 3d at 680 (18). I42. Even though Moffite contends he was
unaware of Sergeant Dowdy's plan to testify about existing scar tissue, the
record shows that Moffite did receive notice that the State intended to
question Sergeant Dowdy about her injuries and ongoing problems from the
attack. The State also forwarded Sergeant Dowdy's statement—which
references "the trauma of the attack and the lasting issues"—to Moffite. If
Moffite was truly surprised by previously undisclosed discovery, he should
have moved the court for a continuance. *15 Moffite's failure to do so causes
this issue to be waived.3
Moffite was concerned that the jury note substantially contributed to his
verdict. The juror questioned whether the serious bodily injury had to occur
before or after the attack. The trial court clarified that any injuries arising
after the attack were irrelevant, therefore clearing any misunderstanding by
the juror and Moffite's concerns.

VI. Moffite was properly sentenced. I43. Moffite argues that burglary of a
dwelling was not considered a crime of violence at the time of his conviction
in 2003; therefore, his sentence as a habitual offender under Mississippi
Code Annotated section 99-19-83 (Rev. 2015) should be vacated. I44. Prior
to 2014, to designate burglary of a dwelling as a violent crime, the State had
to prove actual violence during the commission of the burglary. Brown v.
State, 102 So. 3d 1087,1092 (I21) (Miss. 2012). In 2014, the Legislature
defined burglary of a dwelling as a "per se crime of violence." Miss. Code
Ann. § 97-3-2 (Rev. 2014). This Court has recognized that it is a fundamental
right "not to be subjected] to ex post facto laws." Salter v. State, 184 So. 3d
944,950 (I22) (Miss. Ct. App. 2015). But we have found no constitutional
violation where an enhanced sentence was enforced based on felonies

12 of 18

12/1/2020, 3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https ://casetext. com/case/moffite-v-state-1

committed before the passing of a habitual-offender statute. Miller v. State,
225 So. 3d 12,15 (I12) (Miss. Ct. App. 2017). I45. In Smith v. State, 465 So. 2d
999,1002 (Miss. 1985), prior to the passing of section 99-19-81, the
defendant was convicted of three counts of uttering a forgery and grand
larceny. The defendant, like Moffite, argued that because his prior
convictions occurred before the enactment of the statute, the enhanced
sentencing was a violation of the ex post facto laws. Id. The court rejected
the argument finding that the enhanced sentence was not *16 a brand new
punishment for the defendant's prior crimes, but a more severe penalty for
the most recent crime. Id. 146. Just as in Smith, Moffite's sentence is not a
new penalty for his earlier crimes of residential burglary and grand larceny,
but rather a "stiffened penalty" for his recent crime, aggravated assault on a
correctional officer. Miller, 225 So. 3d at 15 (I12). This occurred after
burglary of a dwelling qualified as a "per se crime of violence." Therefore, his
enhanced punishment is not unconstitutional. I47. Moffite also contends
that the State failed to comply with the Mississippi Rules of Evidence when
an operations officer for the Mississippi Department of Corrections
(MDOC) testified instead of entering his pen-pack into evidence. He argues
that doubt exists about the length of time he served for his prior
convictions, so he does not meet the one-year prerequisite for sentencing as
a habitual offender to life imprisonment. I48. The State must prove the
requirements under the habitual-offender statute beyond a reasonable
doubt. Davis v. State, 680 So. 2d 848, 851 (Miss. 1996). Under section
99-19-83, where one or more of a defendant's prior felony convictions is one
of violence, the defendant will receive a life sentence. § 99-19-83. Our
Supreme Court held that if "the prosecution proves the prior offenses by
competent evidence" and the "defendant [has] a reasonable opportunity to
challenge the prosecutor's proof," then the defendant is appropriately
charged as a habitual offender. Taylor v. State, 122 So. 3d 707,711 (In) (Miss.
2013). I49. In Davis, the defendant, like Moffite, argued that the State failed
to meet the one-year requirement. Davis, 680 So. 2d at 851. Both a jail
administrator and a parole officer testified *17 to the defendant's time
served. Id. The court found that the State presented sufficient evidence that
the defendant served one year in custody. Id. In Sumrell v. State, 163 So. 3d

13 of 18

12/1/2020, 3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/mofFite-v-state-l

997,1000 (18) (Miss. Ct. App. 2015), a supervisor for MDOC's records
department testified to the amount of time the defendant served. Her
testimony was deemed sufficient. Id. In Taylor, certified copies of the
defendant's indictments and sentencing orders were entered into evidence
and constituted ample proof of habitual offender status. Taylor, 122 So. 3d at
711 (In). I50. During the sentencing hearing, the State called the supervisor
of MDOC's records department to testify. She testified that Moffite served
more than a year in prison for both grand larceny and burglary of a dwelling.
The supervisor testified that according to MDOC's records, Moffite served
299 days on his grand larceny charge and another 281.14 after his parole was
revoked, totaling 508.14 days; he served 299 days for burglary of a dwelling,
in addition to 374.86 days following his parole revocation, for a total of
673.86 days. Moffite also served 365 days in 2008 for a felon-in-possessionof-a-firearm conviction. The State submitted three separate sentencing
orders at the sentencing hearing. The orders revealed that Moffite had
pleaded guilty to three different felonies: burglary of a dwelling, grand
larceny, and felon in possession of a firearm. I51. Moffite argues that his
pen-pack should have been placed into evidence. In support, he turns to
Taylor. However, Taylor only held that a pen-pack record qualifies as
competent evidence, not that it is the only way to prove the defendant's
time served. Id. Even if there was confusion regarding the amount of time
Moffite served for his burglary of a dwelling *18 and grand larceny
convictions, there is no doubt that he served a year for the felon-inpossession-of-a-firearm conviction. Moffite, therefore, meets the section
99-19-83 one-year requirement. The State proved with competent evidence
Moffite's prior convictions. Moffite was also provided an opportunity to
challenge the prosecution's evidence but neglected to offer any rebuttal
evidence. I52. Therefore, this assignment of error lacks merit. I53. Finding
no reversible error in Moffite's conviction or sentence, the judgment of the
trial court is affirmed. I54. AFFIRMED.
CARLTON, P.J., GREENLEE, WESTBROOKS, TINDELL, MCDONALD,
LAWRENCE AND C. WILSON, JJ., CONCUR. BARNES, C.J., CONCURS
IN PART AND IN THE RESULT WITHOUT SEPARATE WRITTEN

Hof 18

12/1/2020, 3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https ://casetext.com/case/moffite-v-state-1

OPINION. J. WILSON, P.J., CONCURS IN PART AND DISSENTS IN
PART WITH SEPARATE WRITTEN OPINION.
J. WILSON, P.J., CONCURRING IN PART AND DISSENTING IN PART:
I55.1 concur in part and dissent in part. Pursuant to the direct remand rule,4
I would reverse and render Moffite's conviction for aggravated assault on a
corrections officer as a conviction for simple assault on a corrections officer
because there is no evidence in the record that Moffite actually inflicted a
"serious bodily injury," as the term is defined under Mississippi law. This
result would not affect Moffite's sentence because simple assault on a
corrections officer is a felony, Miss. Code Ann. § 97-3-7(1) (b) & (14) (Supp.
2019), and Moffite was convicted as a violent habitual offender. Thus, a
19

conviction for simple assault *19 on a law enforcement officer would carry
the same mandatory life sentence that Moffite received for aggravated
assault. Miss. Code Ann. § 99-19-83 (Rev. 2015).5156. The indictment in this
case specifically alleged that Moffite "knowingly and purposely cause [d]
serious bodily injury to Jodi Dowdy... by striking [and] grabbing her
around the neck and applying pressure, cutting off blood and air flow to her
brain[.]" Similarly, the jury was instructed that in order to convict Moffite of
aggravated assault they had to find beyond a reasonable doubt that he
"knowingly or purposely cause[d] serious bodily injury to Jodi Dowdy... by
grabbing her around the neck and applying pressure, cutting off blood and
air flow to her brain[.]" Thus, both the indictment and the jury instructions
specifically required the State to prove that Moffite actually "cause[d]
serious bodily injury to Jody Dowdy." I57. There are other ways that the
crime of aggravated assault could have been charged. For example, a person
is also guilty of aggravated assault if he "attempts to cause serious bodily
injury to another" or "attempts to cause or purposely or knowingly causes
bodily injury to another with a deadly weapon or other means likely to produce
death or serious bodily harm" Miss. Code Ann. § 97-3-7(2) (a) (emphasis
added). If the State had prosecuted Moffite on such a theory, then the State
would not have been required to prove that Dowdy actually suffered a
"serious bodily injury." But the State did not pursue such a theory. Rather,
the indictment and jury instructions specifically required the State to prove

15 of 18

12/1/2020,3:03 PM

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

https://casetext.com/case/mofEte-v-state-l

that Dowdy actually suffered a "serious bodily injury." I58. Because of the
substance of the indictment and the jury instructions in this case, the *20
precedents cited by the majority are inapposite. In Pritchett v. State, 171 So.
3d 594 (Miss. Ct. App. 2015), the defendant was charged with and convicted
of attempting to cause serious bodily injury. Id. at 596 (I7). There was
sufficient evidence to support the conviction because Pritchett choked and
violently attacked a correctional officer and even stated that "he tried to kill
that b*tch." Id. at 597 (II8-9). Clearly, Pritchett's own words and actions
were sufficient evidence that he attempted to cause serious bodily injury. Id.
at (I10). And because of the nature of the charge against Pritchett, the
seriousness of the victim's actual injuries was not at issue. Our opinion
simply did not address the question whether the victim actually suffered any
"serious bodily injury." I59. In Sellers v. State, 108 So. 3d 457,456 (Miss. Ct.
App. 2012), the defendant was convicted of attempting to cause "bodily
injury" by using a means likely to produce death or serious bodily harm. Id. at 459
(I7). This Court specifically made the point that the State was not required
to prove that Sellers caused "'serious' bodily injury" because of the nature of
the charge against him. Id. We held that it was "for the jury to decide"
whether Sellers's violent choking of his victim was "a means likely to
produce serious bodily harm." Id. at (117-9). Just as in Pritchett, this Court
never discussed whether the victim actually suffered any serious bodily
injury. The only issue was whether Sellers had attempted to cause any bodily
injury (serious or not) by a means likely to cause serious bodily harm. 16o.
Thus, Pritchett and Sellers simply do not address the relevant issue in this
case: whether Dowdy actually suffered a "serious bodily injury." The
majority's statement that other defendants have been "charged and
convicted of aggravated assault for choking their *21 victims," ante at I12,
glosses over this crucial difference. I61. There is nothing in the record to
show that Dowdy suffered a serious bodily injury, as Mississippi law defines
that term. A "serious bodily injury" is defined as a "bodily injury which
creates a substantial risk of death or which causes serious, permanent
disfigurement, or protracted loss or impairment of the function of any
bodily member or organ." Johnson v. State, 252 So. 3d 597,600 (I13) (Miss.
Ct. App. 2017) (quoting Fleming v. State, 604 So. 2d 280,292 (Miss. 1992)).

16 of 18

12/1/2020, 3:03 PM

https://casetext.com/case/mofFite-v-state-l

MofFite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

Dowdy testified that Moffite choked her until she "couldn't breathe" and
that she "was very disoriented" when she "got up." Photographs show that
Dowdy's neck was bright red after the attack. She testified that she
experienced pain and soreness in her neck and throat for a couple of days,
and she missed one day of work. She also stated that, six months after the
attack, she still had a "knot" or "scar tissue" on the left side of her throat,
although the nature of that injury is not clear from the record. ^62. Moffite's
attack was violent, and undoubtedly it was terrifying for Dowdy. The assault
certainly could have resulted in a serious bodily injury or worse if Dowdy's
fellow officers had not intervened and removed Moffitefrom Dowdy.6 Thankfully,
though, Moffite was restrained before he inflicted worse injuries, and the
injuries that Dowdy actually suffered did not create any "substantial risk of
death" or result in any "serious, permanent disfigurement." Therefore, based
on the indictment and jury instructions in this case, *22 Moffite's conviction
should be reversed and rendered as a conviction for the lesser-included
offense of simple assault on a corrections officer. As stated above, because
Moffite was convicted as a violent habitual offender, that offense would
carry the same mandatory life sentence that Moffite received for aggravated
assault.
See Shields v. State, 722 So. 2d 584,585 (^7) (Miss. 1998).
I concur with the majority opinion that Moffite's other issues are without
merit.
Thus, the evidence probably would have supported a conviction for
aggravated assault for attempting to cause serious bodily injury or for

Make your
rr

.

by “likely t0Tici ng0MSbodily harm-Sees^About us
II57-59..However, the indictment did not allege such a theory, and the jury

effective and efficient witn

. ,

was not instructed on such a theory. WSwfltcbt affirm a conviction bateo$>n

Casetext’s
suite.
Get a Demo

17 of 18

ever presented to the juiy.

Big firrm

Blog

Coverage

Podcast

SmartCite

News

Public records

Twitter

12/1/2020,3:03 PM

https://casetext.com/case/moffite-v-state-l

Moffite v. State, NO. 2018-KA-00649-COA | Casetext Search + Ci...

Partnerships and
Resources
Law school

Facebook
Linkedln
Instagram

Bar associations
Help articles
Customer support
Contact sales
Privacy
Terms

© 2020 Casetext Inc.
Casetext, Inc. and Casetext are not a law firm and do not provide legal advice.

18 of 18

12/1/2020, 3:03 PM

